U.S. Department of Justice
Office of the Inspector General




         Report of Investigation
     into Mlegations Relating to tlhe
      Selection of athe U. S . Attorn.c:y
            for Guam and the
        Northern Mariana Islands




                                  Office of the Inspector General
                                  Oversight and Review Dbivision
                                                       Ju.ne 2006
      This report describes the Office of the Inspector General's (OIG-)
investigation regarding allegations raised by Frederick Black, the former
interim U.S. Attorney for Guam and the Commonwealth of the Northern
Mariana Islands (CNMI). Black alleged that he was replaced a s the interim
U.S. Attorney because he called for an investigation of Washington, D.C.,
lobbyist Jack Abramoff and also because he supported applying federal
immigration law to the CNMI, a position Abramoff opposed.

      Black had served a s the interim United States Attorney for Guiml and the
CNMI since 1991. On November 19, 2002, President Bush nominatetd
Leonardo Rapadas, a lawyer in the Guam Attorney General's office, to be the
Presidentially appointed U.S. ~ t t o r n for
                                          e ~ that district. On May 22, 2003,
Rapadas was sworn in a s the U. S. Attorney and has remained in that position
since then.

       The OIG learned of Black's allegations in July 2005 from Noel Hi:llman, a t
that time the Chief of the Public Integrity Section of the Department of
Justice (DOJ). Hillman notified the OIG that Black had recently been
interviewed by Federal Bureau of Investigation (FBI) Special Agents assigned to
DOJ's investigation into Abramoffs activities. In that interview, Black stated
that he believed he had been replaced a s the U.S. Attorney because of political
controversy he caused in the fall of 2002 by calling for an investigation of
lobbying fees that the Superior Court of Guam had paid t:o Abramoff. Black
also alleged that he may have been replaced in order to prevent the
implementation of a recommendation contained in a May 2002 security report
prepared by a DOJ security specialist regarding the applicability of federal
immigration law to the CNMI, which Black supported and Abramoff allegedly
opposed. During the FBI interview, Black also raised various concerns
regarding the appointment of Rapadas a s the U.S. Attorney and the
management of the U.S. Attorney's Office in Guam and the CNMI (USIAO-
Guam) after Rapadas's appointment.

       A s a result, the OIG opened this investigation into Black's claims that he
was replaced a s the interim U.S. Attorney in retaliation for bringing allegations
involving Abramoff to the attention of DOJ officials. We also investigated
Black's suggestion that he was replaced because of his support for the security
report recommendation urging that federal immigration law be applied in the
CNMI. In addition, we examined Black's allegations that Rapadas's
background investigation was insufficient and that his appointment a s U.S.
Attorney was inappropriate because his uncle was the subject of a public
corruption case being investigated by the Guam U.S. Attorney's office. Finally,
we briefly examined Black's more general allegations regarding the handling of
public corruption cases and other management issues at the U.S. Attorney's
office since Rapadas's appointment.
       In our investigation, we interviewed approximately 20 witnesses,
including Black and current and former DOJ officials involved in the U .S.
Attorney selection process, such a s Associate Deputy Attorney General David
Margolis, former DOJ White House Liaison David Higbee, and former Director
of DOJ7sExecutive Office for United States Attorneys (EOUSA)Kenneth
Wainstein. We also interviewed several former White House staff me.mibers
involved in the U.S. Attorney selection process, including two members of the
White House Counsel's office and a member of the White House Office (of
Political Affairs. In addition, we interviewed current and former members of
the Public Integrity Section and the USA0 in Guam who worked with Ellack
and handled Guam's public corruption cases. We also interviewed Republican
officials from Guam who participated in the decision to recommend Rapadas to
the White House. Finally, we interviewed Abramoff and an associate who
Abramoff said would know about work done on his behalf in connectioin with
Rapadas's nomination.

      In addition, we reviewed documents relevant to Black's allegations,
including documents related to the selection process for the Guam U.S.
Attorney's position and Rapadas's background investigation, and several
thousand pages of documents containing many of AbramofPs e-mails from the
relevant time period.

       This report summarizes the results of our investigation. First, it provides
a timeline of events related to the selection of the U1.S. Attorney for Guam.
Part I1 provides background information on the Guam U.S. Attorney position
(USA Guam) and the U.S. Attorney selection process. Part I11 describes, the
factual chronology relevant to Black's allegations. Part IV contains our
analysis of the allegations. Part V contains our conclusions.

      In sum, we concluded that the evidence does not support Black's)
assertion that he was replaced as interim U.S. Attorney for Guam because of
allegations he raised regarding Abramoff or because of his position on the .
application of federal immigration law in the CNMI. Rather, we found that DOJ
and White House officials selected Rapadas a s the nominee for Presidlential
appointment to the U.S. Attorney's position pursuant to the normal selection
process, long before Black raised his allegations against Abramoff and well

          In early spring 2004, the DOJ opened an investigation into payments made by certain
Indian tribes to Abramoff for lobbying services. That investigation eventually led, according to
published reports, to other related inquiries regarding Abramoff, including his activities in the
CNMI. In January 2006, Abramoff pled guilty in Washington and Florida to conspiracy, wire
fraud, and tax evasion. As part of his plea agreements, Abramoff agreed to assist t:he
government in its ongoing investigation. h r s u a n t to that agreement, OIG investigators
interviewed Abramoff on two occasions. In addition, OIG investigators had access to e-mails
and documents of Abramoff and his former colleagues at Greenberg 'rraurig.
before issuance of the security report recommending the application of' federal
immigration law in the CNMI. In addition, although the public announcement
of Rapadas's nomination was made after Black first raised his allegations
against Abramoff, the timing of the announcement was unrelated to those
allegations and instead was determined by the completion of Rapada.s':s
background investigation.

       In addition, the evidence did not support Black's allegation that
Rapadas's backgrolund investigation was insufficient andl his appointlment
inappropriate. We concluded that the background investigation was conducted
by the FBI in. accord with its normal practices, and the concerns Black raised
regarding Rapadas were adequately investigated. Moreover, the conflict of
interest issue Black identified during Rapadas's background investigation
concerning Rapada.s's relative resulted in Rapadas's reculsal, once he: became
U.S. Attorney, from certain public corruption cases. The evidence also reflects
that those cases were actively pursued by career p:rosecutors in the ( h a m U.S.
Attorney's office after Rapadas became the U.S. Attorney.
      As     United States Attorneys

       United States Attorneys serve as the nation's chief law enforcement
officers in their districts. See U.S. Attorney's Manual (USAM)at 5 3-2.100.
There are 93 U.S. Attorneys stationed t:hroughout the United States, Puerto
Rico, the Virgin Islands, Guam, and the CNMI. One U.S. Attorney is assigned
to each of the judicial districts, with the exception of Guam and the CNMI,
where a single U.S. Attorney serves both districts.

      United States Attorneys are appointed by the President, with the advice
and consent of the Senate, for 4-year terms. See 28 U.S.C. 5 541. Because
they are Presidential appointees and not covered by standard civil service
removal procedures, U.S. Attorneys are subject to removal at the will of the
President. Upon expiration of the 4-year term, a U.S Attorney normally
continues to perform the duties of the office until a successor is confirmed.
USAM at 5 3-2.120.

       In the event a U.S. Attorney position becomes vacant, the Attorney
General may appoint an interim U.S. Attorney'for that district. During the
period under review in this investigation, a person appointed as interim U.S.
Attorney could serve up to 120 days, uintil the nomination and confirmation of
a Presidentially appointed U.S. Attorney for that district or until the
appointment of another interim U.S. Attorney. If a n interim U.S. Attorney
appointment expired before a Presidentially appointed U.S. Attorney was
nominated and confirmed, the federal district court for that district could
appoint a U.S. Attorney to serve until the vacancy was filled. See 28 U.S.C.
5 546; USAM at 5 3-2.160. However, Section 502 in the USA PATRIOIT
Improvement and Reauthorization Act of 2005, enacted in March 2006,
removed the 120-day time limit and permits the interim U.S. Attorney
appointed by the Attorney General to serve until the Presidentially appointed
U .S. Attorney is qualified.

      Bs     Selection Process b r United States Attorneys

       After President George W. Bush was inaugurated in January 200 1, his
administration sought to nominate new candidates to fill the U.S. Attorneys'
positions. Kyle Sampson, who was President Bush's Associate Director for
Presidential Personnel until late September 2001 and is riow the Chief of Staff
to the Attorney General, described the selection process to the OIG.

      Sampson said the White House asked for recommendations from political
leaders in the various districts for candidates to fill the U.S. Attorney positions.
The recommendations generally were submitted by U.S. Senators of the:
President's party to Sampson or to staff in the White House Office of ]Political
Affairs (OPA). If no Republican Senator represented a pa-rticularjudicial
district, Sampson or OPA staff contacted whoever OPA designated a s the
"political lead" for that district. Sampson said the White House generally
sought three names for each U.S. Attorney vacancy, although it did not always
receive three.

       Sampson said the White House forwarded potential U.S. Attorne:~
candidates to the Executive Office for United States Attorney (EOUSA) in the
DOJ, with a request that each person be sent an online application form and
be scheduled for a panel interview. According to Associate Deputy Attorney
General David Margolis, who participated in the U.S. Attorney selectio~i
process, Sampson's request to EOUSA to send the application to an individual
meant that the person had been "named as a candidate" by the White ]House.
The candidates identified in this fashion would be interviewed by a parkel that
normally consisted of Sampson; Margolis; David Higbee, Deputy Associate
Attorney General and the DOJ liaison to the White House; the Director of
EOUSA; and Christopher Bartolomucci of the White House Counsel's office.
Sampson described the interview as similar to a regular job interview, with part
of the interview focused on whether the candidate had any issues that might
arise during the background investigation. After the interviews, the :lpanelists
would rank the candidates in order of preference. According to Sampson, if
there was.only a single candidate, the panel would determine whether the
person "me[t] the bar," meaning that the candidate met the minimum level of
qualifications for the position of U. S. Attorney.

      According to Sampson, the panell usually developed a consensus
regarding the strongest candidate. After the panel agreed on a candidate, the
panel would seek concurrence from the Deputy Attorney General and the
Attorney General. If they concurred with the panel's recommendation,
Sampson would seek approval for the nomination from the White House
Counsel. Sampson stated that he could not recall any occasion when the
Deputy Attorney General, Attorney General, and White House Counsel did not
concur with the panel's recommendation for a U.S. Attorney.

       Sampson said that after the White House Counsel approved a
nomination for U.S. Attorney, Sampson would send an e-mail to EOUSA asking
it to prepare the paperwork regarding the candidate for inclusion in a binder
submitted to the President containing names of candidates being recommended
for appointments a s federal judges, U. S. Attorneys, and U. S. Marshals.
Sampson said he would then discuss the U.S. Attorney candidate
recommendations with the President. Tf the President agreed with the
recommendation, Sampson would inform EOUSA that the President had
expressed his "intent to nominate" the candidate pending the successfill
completion of the background investigation process. However, the "intent to
nominate" would not be publicly announced until after the backgrou:ncl
investigation process was completed and the candidate's background
investigation was "cleared" by the White House Counsel, as described below.

       C.     The Background Investigation and C:onfirmation
       After receivin.g notification that the President: intended to nomina~tea
candidate, EOUSA would ask the candidate to complete the background
investigation forms. The background investigation and confirmation portions
of the process were overseen by EOUSA and the DOJ Office of Legal
Policy (OLP).

      Upon receiving the completed background forms frlom the candidbate,
DOJ would request that the FBI initiate the background investigation.
Background investigations for U.S. Attorneys included interviews of at least six
federal, state, and local judges; three attorneys who are associates of the
candidate; three opposing attorneys; six representatives from federal, state,
and local government prosecutors' offices; and senators of the state where the
candidate would serve. According to Higbee, the FBI generally s0ugh.t to
complete the background investigations within two months. Upon its
completion, EOUSA would review the FBI background investigation anti
prepare a memorandum for Higbee summarizing the results and attaching
interview summaries and other material from the background investigaltion file.
Higbee said he would review the memorandum and, if issues arose in the
background investigation, discuss them with Margolis. Higbee woulcl then
forward the memorandum to Sampson a t the White House.

       According to Sampson, many background investigation memoranda
stated that there were no issues with the candidate. Sampson told the OIG
that in such cases ithe White House Couiisel's office would state that th~e
candidate was "cleared." If the candidate had issues, Sampson said he would
review the memorandum (and sometimes the file a s well) before forwarding the
memorandum to the Deputy White House Counsel, who would make the
determination whether to clear the candidate. If the Deputy White House
Counsel cleared the candidate, the White House informed EOUSA, and EOUSA
sent nomination paperwork to the White House. The White House would then
publicly announce the nomination or the President's "intent to nominate" the
candidate and the White House would forward nomination paperwork to the
Senate?

          Witnesses told the OIG that if the Senate was in session when the candidate was
cleared and the White Ilouse received the nomination paperwork, then the nomination would
be sent to the Senate and the White House press office would issue a release stating, "Today
the President nominates" the candidate. If the Senate was out of session and not receiving
nominations, or if the nominations paperwork was in progress but not quite ready, the White
House would issue a press release stating the President "intends to nominate" the candidate,
and the nomination papers would be sent to the Senate at a later date.
       While the amount of time varied with each candidate, the time from
selection and the beginning of the background investigation to the President's
public announcement of his intent to nominate could be substantial.


111.   FACTUAL CI:3RON(SLOGYRELASTEDTO BLACK'S IPLLEGAT1O:NS.

     Guam and the Northern Mariana~s,which have a combined total
population of approximately 250,000 people, are islands in the North Pacific
Ocean located about three-quarters of the way from Hawaii to the Philippines.
Guam is an unincorporated Territory of the United States, and the Northern
Marianas is a Comimonwealth in political union with the United States.,

      The USAO in Guam is both the smallest of the 93 U.S. Attorney's Offices
and the one farthest from the mainland United States? I[t has a stafT of
approximately 12 Assistant United States Attorneys (AUSA).

       From 199 1 until 2003, Fred Black served a s the interim U.S. Aktorney for
Guam and CNMI. Black started his legal career in 1975 as a Public ]Defender
in Guam and became an AUSA there in 1978. In 1981, he moved to Oregon
and worked as the Deputy Federal Defender, then returned as an AUSA in the
Guam USAO in 1984 to lead a federal public corruption investigation^. I n 1989,
Black became the First Assistant U.S. Attorney in Guam. In August 1991,
after the U.S. Attorney resigned, Black was appointed interim U.S. Attorney for
Guam and CNMI and served in that capacity until replaced by Rapadlas in May
2003. According to Black, his major prosecutorial focus in Guam wats public
corruption cases.

       A.       Potential Nominees from 1691-2000

       Between 1991 and 200 1, DOJ made repeated attempts to find a suitable
candidate for the President to nominate a s U.S. Attorney for G u m . Several
DOJ officials told the OIG that, due to Guam's small population and remote
location, it was difficult to find qualified candidates. The DOJ official
responsible for handling U.S. Attorney nominations from June 1993 to January
2001, Bernie Delia, told the OIG that the White House and DOJ made repeated
attempts to find a candidate for the position. He said he could recall at least
four potential nominees the White House suggested to DOJ who did not make
it through the vetting process.




       3   The time difference between Guam and Washington, D.C., is 14 hours.
       Delia stated it was standard procedure for the person acting as the
interim U.S. Attorney to be interviewed about potential nominees for that
district. Delia said that in each instance, when the White House suggested a
possible candidate for Guam, Black raised objections. In one or two instances,
Black sent lengthy written objections stating why he believed the potential
nominee was not suitable. Delia stated that Black's objections generally were
based on the potential candidate's coninections to family members who were
suspected of corruption. Delia said that in at least two of these cases, DOJ did
not proceed with the potential nominee for reasons other than the objections
Black raised. He also said that in no case were Black's concerns the sole
reason for the decision not to proceed with a potential nominee.

       According to Margolis, who has been involved in the U.S. Attorney
selection process for Guam since 1993, Black remained interim U.S. Attorney
for over 11 years in part because it took that long to find a political appointee,
since Black raised concerns about anyone who was considered a s a candidate.
Margolis told the OIG that after several failed attempts to appoint potential
nominees suggested by the White House, DOJ officials sought a potential
nominee from within the DOJ. He said that DOJ recruited a former 'U.S.
Attorney from the mainland United States, but he declined to pursue the
nomination after visiting Guam. In addition, DOJ recruited an official from the
Deputy Attorney General's Office to be interim U.S.Attorney in place of Black,
but the appointment process bogged down because of a disagreement between
Margolis and the Chief Judge who held the appointment authority. According
to Margolis, during the time he has been involved in the selection process the
White House never named Black a s a candidate and he was never considered
for the Presidential appointment.

       Sampson told the OIG that once President Bush was inaugurated in
200 1 there was a general decision to replace Clinton-era U.S. Attorneys and
that the Bush Administration wanted to "get a fresh team in." Sampson said
he was aware that all the territories had U.S. Attorneys who were "acti~~g."
Sampson said, "In my mind, a s the person who was running the se1ect:ion of
U.S. Attorneys, I never considered Black a candidate. By virtue of the fact that
he had been there 12 years . . . he was not going to be a candidate." Tlie fact
that Black had been appointed interim U.S. Attorney by George H.W. Bush, a s
opposed to President Clinton, "didn't make a difference," according to
Sampson. Although Sampson did not have a specific recollection of the
conversation, he said he thought he an.d Margolis had a discussion to t.he effect
that Black had been the acting U.S. Attorney for 12 years and the Bush
Administration wanted to put its own team in office.

      Black told the OIG that he initially did not ta.ke any steps to become a
Presidentially appointed U.S. Attorney because he was happy doing the: job a s
the interim U.S. Attorney and there was not any competition for the position.
He also stated that he did not take immediate steps to obtain a Presidential
appointment because "the kind of people that recommend the U.S. Attorney
position are the very people we are investigating." In addition, Black stated
that he was "getting the pay" and "doing the work" so he would rather not
become the Presidentially appointed U.S. Attorney, given that "when the
President leaves, you're out." He said that once others started expressing an
interest in the position, however, he "tried to throw his hat in the ring." Black
also told the OIG that once, in approximately 1993, he was considered for
Presidential appointment a s U.S. Attorney or for a federal judicial appointment
on Guam (he could not recall which). He stated that he never learned -why his
interview did not lead to a nomination.

      B.    RapadaspsName is Submitted to the White House and
            Forwa:rdedto EOUSA

       In May 2003, Leonardo Rapadas was sworn in a s the U.S. Attorney in
Guam, replacing Black. Rapadas had worked for the Office of the Attoirney
General of Guam from August 1989 until 2003. During his 13 years at the
Attorney General's Office, Rapadas served a s the head of the Violent Crime Unit
for 18 months and a s Chief Prosecutor for 3 years, in addition to working a s a
line attorney.

       We sought to determine how Rapadas came to be recommended to the
White House as a candidate for the position of U.S.Attorney for Guam.
Rapadas told the OIG that the Speaker of the Guam Legislature, Antonio
Unpingco, first contacted him to discuss the U.S. Attorney position in the
summer of 200 1. Unpingco told the OIG that after President George W. Bush
was elected, he thought it would be a good time to recommend someone for the
U.S. Attorney position. At the time, Unpingco was the highest ranking
Republican in Guam because the Governor, Carl Gutierrez, was a Democrat.
Unpingco also noted that there had never been someone from Guam who
served a s U.S. Attorney, and Black had been in t h e position for the "longest
time."

       Unpingco stated that it was his idea to ask Rapadas to become a
candidate for the U.S. Attorney position. Unpingco said he had known
Rapadas since childhood. Unpingco stated that he approached Rapadas
because he knew Rapadas was a successful prosecutor with the Attorney
General's office who had handled high-profile prosecutions and was winning a
lot of cases. Unpingco said that the fact that Rapadas was "local" was idso a
factor.

       Unpingco told the OIG that when he asked if Rapadas was interested in
pursuing the U.S. Attorney position, Rapadas said he was. Unpingco said he
recalls telling Rapadas that he would have to be "Mr. Clean" because the FBI
would do a background investigation. Unpingco said he told Rapadas that if he
had any "dirty linen" he should let Unpingco know right away. Unpingco
stated that Rapadas did not disclose to him any information of that na.ture.

      Unpingco stated that he did not ask Rapada-s any specific policy
questions while discussing the U.S. Attorney position. He said he did not
discuss with Rapadas issues relating to the application of federal immigration
law in CNMI or a jurisdictional dispute between the Guam Superior and
Supreme courts. Rapadas also stated that he did not discuss public
corruption matters or immigration policy issues with Unpingco. In atddition,
Rapadas told the OIG that he had never heard the name Jack Abramoff until
Black later brought it up to Rapadas during a meeting shortly after Rapadas
was confirmed a s the U.S. Attorney in 2003.

      Unpingco stated that he concluded that Rapadas was the caliber of
someone he could recommend, so he wrote a letter to the White House
recommending him. Unpingco also told Rapadas that if he was interested in
pursuing the position, he should contact David Sablan, the Guam Republican
Party Chairman. lJnpingco stated that the only other action he took in
connection with this nomination was that he contacted Sablan to recommend
Rapadas.

      Unpingco said he did not recommend Rapadas in order to influe:nce any
public corruption case Black was pursuing or to reduce public corruption
prosecutions on Guam. Unpingco said that Black is a friend of his, but he did
not know what investigations Black was conducting at that time.

      Unpingco said he was not contacted by anyone in Rapadas's family or by
Abramoff about filling the U.S. Attorney position. Unpingco told the OIG that
he has never had any dealings with Abramoff and has never been cointacted by
Abramoff about anything. He said he would not recognize Abramoff artd does
not think he has ever spoken to him or met him. The OIG's review of
documents did not reveal any indication that Abramoff was in contact with
Unpingco.

      Guam Republican Party Chairman David Sablan told the OIG that he
looked to Unpingco for a recommendation for the U.S. Attorney appointment
because Unpingco was the highest-ranking Republican official on Guam a t that
time. Sablan said he also sought the assistance of Fred Radewegan, a political
consultant who lives in the Washington, D.C. area.4 After Unpingco

          In 1982, Radlewegan founded Pacific Islands Washington Clffice, Inc., a Waslhington,
D.C-area governmental relations firm that specializes in strategic planning, international
relations, and political affairs. Sablan told the OIG that when he was elected chair. of the Guam
Republican Party in 200 1, Radewegan reachedl out to him and offered his assistanice in helping
Sablan understand the national political system. Sablan said he accepted the offer. He told
the OIG that Radewegan gave him guidance on Republican National Committee mattlers he was
(continued)
recommended Rapadas, Sablan spoke with Rapadas. Rapadas stated 1:hht he
could not recall any discussion with Sablan about any in.dividua1case, how
Rapadas would handle any specific type of case, or Rapadas's views on
immigration policy. Sablan subsequently forwarded his name to Radle~vegan.
Sablan and Radewegan also received the concurrence of Republican Pa~rty
                                                                                              '
officials in the CNMI and American Samoa regarding Rapadas.5 Radewegan
then forwarded Rapadas's name to the White House as a candidate for the U.S.
Attorney position.

       Sablan and Radewegan said that. they had no contact with Abramoff
about this nomination and that they were not aware that Abramoff played any
role in the nomination. In addition, the OIG's review of dlocuments did not
reveal any indication that Sablan or Radewegan had contact with Abramoff
regarding this matter?

      We also sought to determine what happened with t.he U.S. Attorney
recommendation once it reached the White House. We determined that, at the
time, White House Office of Political Affairs (OPA) staff member Leonard
Rodriguez was assigned to handle appointment issues involving the t.erritories,
including the G u a n n U. S. Attorney's position. Rodriguez said that because
there are no U.S. Senators for Guam, it was unclear who would suggest
potential nominees. He said he discussed the nomination with people -who
were "trusted sources" regarding Guam, including Sablan and Radewegan.

      Rodriguez received an e-mail from Radewegan on December 11, 200 1,
recommending Rapadas a s the candidate for U. S. Attorney.7 Rodriguez said
that he forwarded the e-mail the same day to Sampson, the White Hou:se
Associate Director for Presidential Personnel. E-mail records show that
Sampson received the e-mail and forwarded it to EOUSA, also on December 11.

handling in his positiorl a s Guam Republican Party chairman, and gave him information about
how to make recomme~~dations     for federal positions.

        5 Sablan statedl that one of the things t.hat Radewegan advised him was that a one-
person recommendation does not carry enough clout, so Sablan might want to submiit
recommendations for federal appointments that have the backing of several Republican Party
officials in the CNMI and American Samoa, which would carry more weight.
        ti Radewegan also said he did not have any contact with White House advisor Karl Rove
in connection with this matter. Radewegan stated that his involvement in the nomination was
limited to his discussions with Sablan and the submission of Rapadas's name to the 'White
House, as described above.
       7 The e-mail states, "Here is another copy of the resume of Leonardo Rapactas, the
candidate of the Republican and Bus[iness] leadership on Guam for U.S. Attorney for
Guam/CNMI, which has the full backing of the parties in CNMI and American Sarr~oa~.
Originally transmitted to Clay Johnson's shop [the White House Personnel Office] hy .Amata
[Radewegan's wife] on Sept. 12 but no acknowledgement ever was received."
EOUSA subsequently sent the online application to Rapadas, who completed
the application on December 17, 200 1.

      When we asked Rodriguez why Rapadas was recommended to the White
House by Guam officials and why he forwarded the name: to EOUSA a s a
candidate, Rodriguez said he could not specifically recall the discussions he
had with the people he consulted about the nomination, but that in general the
discussions concerined whether a candidate would fall in line with the
President's philosophy. Rodriguez stated'that Rapadas was viewed a s someone
who would be strong on law enforcement. Rodriguez said that he was not
aware at the time of any allegations about Abramoffs relationship with the
government of Guam, and that he did not recall any disciussion of a Gu.am or
CNMI security report during the process of soliciting recommendations for a
U.S. Attorney candidate for Guam.

       Rodriguez denied that Abramoff or the CNMI immigration issue played
any role in his decision to forward Rapadas's name to EOUSA a s a candidate
for the U.S. Attorney position. However, Rodriguez told the OIG that he kept
Abramoff aware of information relevant. to Guam, including potential nominees
for the U.S. Attorney position. Rodriguez said he did so at the behest of Ken
Mehlman, the White House Political Director, who "recommended or suggested
that I reach out to ]make Jack aware" of issues related to Guam.

       Rodriguez estimated that he exchanged a total of five e-mails with
Abramoff regarding Guam. Rodriguez said he recalled sending one e--mdlto
Abrarnoff stating that Rodriguez would be the point person on the U.S.
Attorney nomination and if Abramoff had any issues or concerns that tie
should bring those to Rodriguez's attention. However, Rodriguez statecl that
Abramoff did not supply any candidate names or provide him with any input
into the Guam U.S. Attorney nomination. Rodriguez said he does not recall
Abramoff ever contacting him regarding the U. S. Attorney position. Rodriguez
stated that when he contacted Abramoff, it was generally to pass on
information relevant to Guam, such a s the name or names of people under
consideration for U.S. Attorney, although not all the e-mails he sent t:o
Abramoff related to the U.S. Attorney position. Rodriguez said that the
communications with Abramoff about Guam issues was one-sided. Rodriguez
description of these communications was confirmed by our review of Abramoffs
e-mails?

           Abramoffs e-mails show that Rodriguez's earliest e-mail co:mmunication with him
about any positions in Guam occurred well after Rodriguez received .Rapadas's narrie and the
White House had named Rapadas as a candidate to EOUSA. On October 23,2002, Rodriguez
sent a n e-mail to Abramoff, with a copy to Ken Mehlman, in which Rodriguez stateti that he
had tried to reach Abramoff by telephone to introduce himself. Rodriguez also stated that he
oversaw the U.S. territories for OPA and invited Abramoff to "feel free to contact me directly for
any requests from Guam." The OIG found only one e-mail, dated November 19, 2002, between
(continued)
       C.     Int~rdiewPanel's Decision to Propose Rapbadas for Nolmination

      DOJ records reflect that the DOJ panel interviewed Rapadas on
December 18, 200 1, one week after Sampson sent his name to EOUSA a s a
candidate for the Guam U.S. Attorney's position. These records also show that
DOJ seriously considered one other candidate for the Guam position, an
Assistant United States Attorney who had worked in Hawaii. That prosecutor
was interviewed by the panel on January 15, 2002. However, according to
Sampson, the prosecutor declined to pursue the position after the interview.

       The interview panel for Rapadas consisted of Sampson, Margolis, Higbee,
Bartolomucci, and Ken Wainstein, then the Director of EOUSA. The 0I:G
interviewed all of these panel members. Although they said they could not
recall the specific details of the interview, all stated that they did not remember
any discussion regarding Abramoff or a security report when considerirlg
Rapadas's candidacy.

       In addition, although Black did not make his allegations against
Abramoff until November 2002, and the CNMI security report was not issued
until May 2002, both well after the panel interview, we asked the interviewers
whether Rapadas's position on public c:orruption prosecutions or the
applicability of immigration law to Guam and the CNMI played any role: in his
selection. They all said they did not recall any discussion of either issue during
the interview or subsequent discussions. The panel members all denied
selecting Rapadas in order to diminish public corruption prosecutions (orto
affect federal immigration policy in Guam or the CNMI.

      Although the interviewers could not recall their specific discussions
about Rapadas's qualifications after his interview, they told the OIG that they
believed they developed a consensus that Rapadas "met the bar" and that it
would be appropriate to propose him for nomination.

       We also sought to determine whether Abramoff had any role in this part
of the selection process, and found that he did not. We asked the interviewing
officials whether Abramoff contacted them about the nomination, ant1 none
recalled any contac:t with Abramoff about the nomination^. Higbee told the OIG
that Abramoff did not contact him in connection with the Rapadas nomination.
Wainstein stated that he sometimes received calls from people outside DOJ
recommending a particular candidate, but that he had no recollectio~lof any
                                                        -    -




Rodriguez and Abrarnoff regarding the Rapadas nomination. A s described below, ckn
November 19, 2002, the White House publicly announced the President's intent to nominate
Rapadas as U.S. Attoniey for Guam. In a November 19 e-mail to Abrarnoff, Rodriguez
inaccurately stated tha.t the President would "nominate Leonardo Rapadas for U.S. Marshal in
Guam today" (the nomination was for the U.S. Attorney position, not U.S. Marshal).
such call from Abramoff. Margolis said that Abramoff never contacted him.
Sampson said he h~adno recollection of being contacted by anyone outside the
government or of anyone mentioning Abramoff in connection with the
nomination. Margolis, Higbee, Wainstein, and Sampson added that Abramoffs
name would not have meant anything to them a t the time. Bartolomucci said
he had trouble recollecting the Rapadas interview and told u s that he may have
interviewed a s many a s 100 U.S. Attorney and U.S. Marshal candidates.
However, he said he did not recollect any contact from Abramoff about
Rapadas.

      In addition, all of the interviewers said they did not recall being contacted
by anyone outside government regarding the selection. Higbee added t.hat
there was not really a "push" for Rapadas from anyone. He said that when
Rapadas's name came in, the candidate went through the normal selec:tion
process.

       D.      The President's Decision to Nominate Rapadas

       The interviewers told u s they had no specific recollection of any
subsequent discussions about the nomination with the Deputy Attorney
General, the Attorney General, or the White House. However, Sampson said
that he believes the normal procedures were followed in this case - that is,
after the interview panel had agreed to propose Rapadas, the interview panel
obtained concurrence from the Deputy Attorney ~ k n e r aandl    the Attorney
General?
                                                                                                     '
       9 Black has also cited press reports which state that Abramoff sent an e-mail to a client
in the CNMI in October 200 1 in which he discussed his concerns about a federal takeover of
immigration law in CNIMI, and in which he claimed to have access to Attorney General Ashcroft
and his Chief of Staff, David Ayres. Black speculated that Abramoff or his colleagues may have
asked Ayres or Ashcroft to take action against Black.
        However, Abrannoff denied taking any actions to have Black replaced until February
2002, a s discussed in Section 1II.F of this report, and Abramoff stated that the contacts with
DOJ officials related to Black that took place a t that time were undertaken by his collleagues,
not by him personally. In addition, other OIG interviews did not revleal any effort by ;my
Abramoff associate to cliscuss the Rapadas nomination with Ayres or Ashcroft. Moreover, we
did not find any indication in the documents we reviewed that Ashcroft took any action in
connection with the Rapadas nomination, beyond approving the nomination.
         Moreover, we found no evidence to indicate that Ayres was involved in any decision
regarding the Guam U.S. Attorney nomination. Ayres told the OIG that he sometimes
participated in meetings at which the Deputy Attorney General and others discussed progress
on U.S. Attorney nominations, and Ayres said that these meetings constituted his onlly
involvement in the U.S. Attorney selection process. However, Ayres stated that the only
memory he had in connection with the Guam U.S. Attorney riominat.ion was that it w<as
"difficult finding" nominees for the islands outside the continental United States - U.S. Virgin
Islands, Puerto Rico, and Guam. He said he thought these nominations were completed
towards the end of the U.S. Attorney selections due to the difficulties finding nomi11ee:s for the
islands. Ayres also said that he did not recall either Abramoff or aqr of his colleaguers
(continued)
        Sampson said that he believes that after the Deputy Attorney General
  and Attorney General concurred, he then obtained approval for the R!apadas
  nomination from the White House Counsel, pursuant to the normal pri3ctice.lo
  Sampson said he believes he then asked EOUSA to prepare paperwork
  consisting of a one--pagedata sheet, a resume, and a picture of the candidate.
  Sampson said he believes he presented1 Rapadas's candidacy to the President,
  and the President approved the nomination, pending successful completion of a
. background investigation.

       E-mail records provided to the OIG by Rapadas suggest that thiose who
 submitted Rapadas's name to the White House were kept apprised of the
 progress on his nomination. An e-mail. Sablan sent to Rapadas on February 6,
 2002, stated that "word has come back that so far the background
 investigation on you is going along fine."" On February 17, 2002, Sablan
 wrote an e-mail to JRodriguez and Mehlrnan stating that Radewegan had
 informed him that Rapadas "got the nold from all concerned."

       Other documbentsreflect that the White House approved the nom.ination
 of Rapadas, pending the successful completion of the background investigation
 process, on March 8, 200'2. On March 11, 2002, EOUSA sent the background
 investigation forms to Rapadas.

        E.     Black Requests the Presidential Appointment

       During this process, Black expressed interest in being considered for the
 U.S. Attorney's position. On November 21, 2001, he wrote to Sablan aslung to
 be considered for the position. Sablan told the OIG'that he let Black know that
 the Republican Party leaders of Guam had already decided to submit:
 Rapadas's name. However, Sablan also stated that he told Black tha.t, if
 Rapadas was unsuccessful in getting the nomination and being confirmed,
 Sablan would have tried to pursue the nomination for Black.



 attempting to contact him in connection with the removal of Black or the selection of Rapadas.
 Similarly, no other witrlesses we interviewed recalled any discussions with Ayres, Attorney
 General Ashcroft, or the Deputy Attorney General relating to Rapadas.
         lo As noted above, Sampson stated tha.t he could not recall any occasion when the
 Deputy Attorney General, Attorney General, and White House Counsel did not conrcur with the
 interview panel's reconlmendation for a U. S. Attorney candidate.
         l 1 Sablan told the OIG that his reference to "background investigation" in this e-mail
 was a reference to the general vetting process, rather than the portion of the process in which
 the FBI conducts interviews for a formal background investigation. As discussed i:n section H,
 it was not until June 3, 2002, that DOJ and the White House Counsel's office requested the
 FBI to begin its backpound investigation work on the Rapadas nomination.
       On January 16, 2002, Margolis sent Black an e-mail stating that DOJ
was considering two "very serious candidates" for the Guam U.S. Atborney
position. Margolis told the OIG that he wanted to find out early on what
Black's position would be with respect to the potential candidates, given
Black's repeated, strong opposition to previous candidates. Margolis stated in
the e-mail to Black that the two candidlates were Rapadas and a prosec:utor
from Hawaii (who slubsequentlywithdrew his name from consideration for the
position). Black responded to Margolis that Rapadas was "unsuitable* and that
he had had only limited contact with the other candidate. Black also a.ttached
to his response a letter dated January 7, 2002. In the letter, which was
addressed to the Attorney General, Black asserted that "the local power
brokers" had propolsed Rapadas in an "attempt to neutralize" the U.S.
Attorney's office regarding public corruption matters. He raised conc:erns
about Rapadas's family connections and raised the likelihood of a recusal of
Rapadas or the entire office from a major corruption investigation if Hapadas
was appointed. Black also stated that the Guam Attorney General's Office,
where Rapadas worked, had "impeded federal investigations."

      In a second letter, dated January 17, 2002, which was also addressed to
the Attorney General, Black stated that he was a Republ.ican Party mlernber
and "would like to iapply to be the Presidentially appointed United States
Attorney" for Guam and the CNMI.

       Margolis told the OIG that DOJ did not take action on Black's request to
be considered a s the U.S. Attorney because it was not the manner in which
candidates for the U.S. Attorney position entered the selection process. As
noted above, candidates for political appointments were determined by the
White House, not tlhe DOJ. DOJ's role was to participate in interviews and the
decision a s to whether or not a candidate put forward by the White H[ouse was
qualified and likely to successfully complete the background investigat:ion
process.

     The DOJ did not provide a written response to Black's January 17 letter.
Rather, according to DOJ records, the matter was "handled via telephone" by
an EOUSA official.

      On Novembeir 8, 2002, the Governor-elect of Guam., Felix Camaclho,
wrote to the White House to seek the President's "favorable consideraltion in
continuing the appointment of Attorney Fred Black for the position ol United
States Attorney for Guam and the Northern Marianas." However, a s noted
above, a t this point. Rapadas had already been selected as the nominee.
        F.     Abram,offsInvo~ementwith the Guam U.S. Attorney
               Nomination

       We also attempted to determine independently, through interviews with
Abramoff and review of his e-mails, whether he was involved with any attempt
to influence the nomination for the Guam U.S. Attorney position. We
determined that by the time Abramoff became involved in trying to irlfliuence
the nomination, Ra~padashad already been selected. Then, when Abramoff was
informed of the White House's decision., he attempted to take credit wiih his
Guam contacts for the selection of Rapadas, even though he played no role in
it.

      Abramoff had represented the CNMI government since 1995 and worked
to prevent federal immigration and minimum wage laws from being aplplied in
the CNMI.12 Abrannoff told the OIG, and documents confirm, that prior to 2002
Abramoff was aware that Black, as the interim U.S. Attorney for Gua~m.and the
CNMI, took the position that federal immigration law should apply in the CNMI.
However, Abrarnoff told u s that he did not recall attempting to influence who
held the position of U.S. Attorney in Guam prior to 2002, and we found no
evidence to the cor~trary.
                        13


       Abramoff told the OIG that he recalled becoming involved in attempts to
influence the Guarn U.S. Attorney nomination beginning in February 2002. At
that time, Abramoff was pursuing a $1.3 million contract with the govc:rnment
of Guam to represent its interests, including attempting to increase airplane
flights to and from Guam. A s part of his efforts to obtain the contract,
Abramoff met with the Democratic Governor of Guam, Carl Gutierrez, at a
dinner in Washington, D.C. Abramoff, who had previously worked on behalf of
Gutierrez's Republican opponents, said he was aware at that time that.
Gutierrez wanted Black removed from his position in part because of a n
ongoing corruption investigation B1ack:'s office was pursuing into the activities

        l2 Abramoff told the OIG that one of his primary strategies in representing the CNMI
involved bringing members of Congress and Congressional staff on trips to the CNMI. Abramoff
stated that he wanted them to see first-hand the island and its businesses, and in. p;xticular
the conditions of those working on CNMI. He stated that these trips were successful. in helping
to prevent Congress from imposing federal im~nigrationlaws or the federal minimum wage on
CNMI.
       '3 Abramoff told the OIG that, in connection with this work on the CNMI niiruimum
wage issue, he had talcen some action that could have affected the jurisdiction of 1:hr: U.S.
Attorney in Guam. Hr: said that in 1998 he learned that money had been appropriated by
Congress to fund an office that would handle complaints from garm.ent workers on C:NMI.
Abramoff said he opposed this appropriation a s harmful to the economy in the CN'MI.
Abramoff said that because it was too late in the appropriations process to remdve tlie funds
from the bill, he sougl-it to have them designat.ed instead for a separate U.S. Attoriiejr for the
CNMI, a position that did not exist. However, that legislation was never enacted.
of certain members of the Gutierrez administration. Abramoff told u s that, at
the dinner, Gutierrez mentioned a letter he had written many years earlier on
Black's behalf in which he had stated that Black was a "good Democrai:."
Gutierrez and Abramoff discussed using this letter to assist in removing Black
from his position.

      Abramoffs e-mails confirm that in late February 2002 he became
involved on Gutierrez's behalf in a plan to oust Black from the interim 'U.S.
Attorney position. According to the e-mails, on February 25, 2002, A,bramoff
obtained the Gutiel-rez letter, which was addressed to President Clinton and
dated January 12, 1995. In the letter, Gutierrez had referred to Black a s a
good Democrat andl recommended that he be "re-appointed" to the position of
U.S. Attorney for Guam.14

       Upon receiving the letter, Abramoff sent it by e-mail to four members of
his lobbying team at the Greenberg Traurig law firm who handled Guam and
CNMI issues: Mich~aelWilliams, Tony Rudy, Kevin Ring, and Todd Boulanger.
Abramoff stated in the e-mail that Black was a "total commie and has been
bashing the CNMI non-stop in the past. . . . We need to get this guy sniped out
of there." In subsequent e-mails, Abramoffs collea-guesciiscussed using the
Gutierrez letter to "stop [Black's] nomination." On February 26, 2002, Williams
sent Abramoff an e-mail stating that Rudy was ready to speak to the White
House about "killing the U S Attorney candidate [Black],"but that Willlkuns
thought they should be prepared to suggest a good. Republican alternaltive.

      Abramoff told the 016 that it took some time for Williams to obtain the
name of a candidate who was favored by both Gutierrez and Abramoffs main
contact on Guam, Guam Democratic Senator Mark Charfouros.15 Abramoffs
e-mails reflect that by March 4, 2002, Williams had learned that Gutiejrrez and
Charfouros favored. an attorney from the Washington, D.C. law firm Patton,
Boggs for the Guann U.S. Attorney position. Abrarnoff told the OIG that the
attorney had worked with Gutierrez's son-in-law on a business matter.

      On March 4, 2002, Williams reported to Abramoff in an e-mail that he
had spoken with the attorney and the attorney was on the candidate lilst but

       l 4 Black told tl-ie OIG that Gutierrez previously had shown him such a letter, possibly
in 1995. Black stated that he did not request the letter from Gutienrez, and did not know if it
was ever sent to the White House. Black stated that he believed the letter was a n ,attempt by
Gutierrez to curry favor with him due to his palsition a s interim U.S. Attorney.
        15 We found one January 2001 e-mail from Charfouros to Abramoff stating that
Governor Guiterrez would be unofficially "funneling" his candidates for U.S. Attorney and
judiciary appointments through Abramoffs office. However, Abramoff s February 2002 e-mails
were the earliest we found indicating that Abramoff or his colleagues took any action in
connection with the U.S. Attorney position.
had yet to be interviewed. However, the OIG found no record this attorney's
name was forwarded to EOUSA as a candidate and there is no record that he
was ever interviewed for the position.

      On March 6, 2002, Williams sent a follow-up e-mail to Ring and Rudy
stating that he needed them to "talk with the political folks" at DOJ anfdthe
White House to make sure that Black was ousted a s soon as possible a~ndto
push the Patton, Boggs attorney for the position. Williams wrote that Black
was "an enemy of the Governor" and was using his office to "harass" Gutierrez.
Williams also wrote that Gutierrez and Charfouros favored the Patton, Boggs
attorney for the position, and that "the other two" candidates were Rapadas
and an Assistant U.S. Attorney from Hawaii. In the e-mail, Williams laid out
arguments in favor of the Patton, Boggs attorney, including that he could
"clean u p the corrulption in Guam and return respect to the Guam U.S.
Attorney's office." Williams reminded Ring and Rudy to provide a copy of the
Gutierrez letter to I30J officials.

       Ring responded in a n e-mail on March 6, 2002, to Abramoff, Williams,
Rudy, and Boulanger: "Just to be clear, we are lobbying in favor of the:
Dem[ocratic] Gov[ernor]'s choice against the White House's and local GOP's
pick?" Abramoff responded, "We are opposed to Black. He has been screwing
us for years on the CNMI, so this is good payback. I don't care if they appoint
bozo the clown, we need to get rid of Fred Black."

       Yet, as described above, unbeknownst to Abramoff and his colleagues, by
this time the White House had already made the decision to nominate
Rapadas. On Marc:h 8, the same day EOUSA was informed by the White House
that the President had made the decision to nominate Rapadas, Williams sent
a n e-mail to Abramoff reporting that he had just learned about Rapadas's
nomination from Rudy, who had spoken to Carl Thorson, then Deputy
Assistant Attorney General in the DOJ Office of Legislative Affairs. Williams
stated that although the "good news" was that Black would be out soon, the
"bad news" was that the Patton, Boggs attorney did not make the final cut.
Williams said that Thorson told Rudy that Rapadas was "the pick" and that
unless something came u p in the completion of his background check, he
would be formally nominated. In addition, Williams stated that Thorson said
they were "too late" to affect the process.

        In response to Williams's March 8 e-mail, Abramoff instructed W'illiams
to tell their c0ntact.s in Guam the "good news" that "Black is gone." He told
Williams that he should "play it" as though Black had been under
consideration for the position but their lobbying efforts had "lulled" Rlack's
nomination. Abrarnoff also told Williams he should say that Black andl
Rapadas had been the final two candidlates when they "killed Black," s(o
Rapadas would probably get the nomination. Abramoff added in the e--mail
that they should tell them that the Patton, Boggs attorney was "out of the
process already. Spin spin spin."

Abramoff told the OIG that he did not recall taking any further action l:o
influence the selection of the U.S. Attorney for Guam because they u.nderstood
that the process had concluded.16 Abramoff told us that he did not provide any
direct input to Rodriguez, the White House, or DOJ regarding the USA-Guam
position. However, he said another associate might know more about any work
done on his behalf in connection with Rapadas's nomina-tion. The OIGr
contacted that person, and was able to corroborate the description given by
Abramoff of his firm's failed attempt to influence the U. S. Attorney nomination.
Neither Abramoff nor any other witness interviewed by the OIG recalled any
efforts to affect the Guam U.S.Attorney nomination prior to February 2002,
and the OIG has not found evidence to suggest that they made any other
efforts.

     In sum, the (OIGhas not uncovered any evidence to suggest th.at.
Abramoff or his colleagues had any knowledge of or involvement in the
Rapadas nomination until after February 2002, by which time it was too late to
affect the selection.

       O.      M a y 2003 Security Report

       Black also alleged that he may have been replaced as interim U.S.
Attorney in order to prevent the implementation of a recommendation
contained in a May 2002 security report regarding the applicability of federal
immigration law to the CNMI, which Black supported and Abrarnoff opposed.
In this section of the report, we address the question of whether Black was
replaced in order to prevent implementation of this recornmendati~n..l:~

        l6 However, Abramoff and Williams continued to track the nomination of Rapadas'as it
proceeded through the confirmation process. In addition, in one e-mail to a Senate staffer in
April 2003, Williams offered to provide the Gutierrez letter about Black to the staffer. Another
e-mail reflects that Williams was told on May 7, 2003, by his congressional contacts that
Rapadas was on the Judiciary committee docket the next day and was expected to be "reported
favorably" by the com~mittee.Williams told Abramoff that he would inform Gutienrez's
son-in-law of the development. On May 9, after the full Senate voted to confirm Rapladas,
Williams e-mailed the news to the Governor's son-in-law and asked that the Governor be
notified.
         l7 In addition, Black has alleged that the security report was improperly leaked to
Abrarnoff, that the author of the report (Meissner)was re-assigned :in retaliation for his work on
the report, and that the contents of the report were suppressed because of Abramoff7s
opposition and influence- A s noted above, in early spring 2004 the DOJ opened a.n
investigation into Abr'moff s lobbying activities. Charges filed in that investigation confirm
that the investigation eventually led to other related inquiries regarding Abramoff, including his
activities in the CNMI. We have referred to the FBI and the Department of Interior OIG the
allegations of unauthorized disclosure of this report to Abramoff and other relatedl matters,
(continued)
      The CNMI security report was written in early 2002 by Robert Meissner,
a DOJ Regional Sec:urity Specialist who advised the Guam U.S. Attorney's
Office regarding building security and other security-related issues.18 I:n
February 200 1,. Black wrote to EOUSA requesting i 3 "security assistance visit"
due to a recent security incident and other threats to his district.

      On May 6, 2002, Meissner sent a letter to Black attaching a 34--page
report summarking the results of his security review. In the report, Meissner
wrote that the federal government did not maintain control of customs and
immigration on Guam and the CNMI. He stated that the lack of such control,
"coupled with a long history of deliberate territorial indifference to corrective
action," fostered "criminal activity and public corruption . . ." Meissrie~ralso
stated that a complete, in-depth review of policies concerning the relationships
between the U.S., Guam, and the CNMI governments was urgently needed.

      Meissner's report made 28 recommendations covering a broad ralnge of
issues, including extending federal control over im:migrat,ionin the CNEVII,
increasing federal jurisdiction over customs on Guam and the CNMI,
establishing effective Coast Guard patrol and interdiction capability, creating a
multi-use federal compound that meets specific security requirements,
establishing an on--islanddetachment of the Department of Homeland Security,
opening U.S. Customs and Internal Revenue Service offices in the CNNII,
expanding "passenger verification" by Customs officers, and other major
security initiatives.

       Abramoffs e--mailrecords indicate that by late June 2002 he bad
obtained a copy of the report from an official a t the Department of the
Interior.19 However, a s described above, by the time Abramoff received the
report he had already been told that a decision had been made to replace Black
as U.S. Attorney.

      On July 11, 2002, Black wrote to the Deputy Attorney General. stating
that he was "recently informed" of congressional interest in the Meissner
report. Black stated that he recently provided the report to the Department of

including whether any government officials took actions a t Abramoffs behest in connection
with that report or whether Abramoff had an impact on the handling of the May 28012 security
report by government (officials.
       l 8 Regional Secxrity Specialists are EOUSA employees who evaluate and integrate
information security, communications security, physical security and personnel security
programs a t U.S. Attorney's offices.

       19 A s noted above, we have referred issues relating to the urlauthorized disclosure of
the report to the FBI and the Department of Interior OIG.
Justice and Department of the Interior (DOI). He summarized the issues in the
report that he believed should be addressed, and he requested working-level
meetings to address short- and long-term solutions to th.e security i., sues .

      DOJ records reflect that in August and September 2002 EOUSA
attempted to determine what actions had been taken on the recommertdations,
and the director of EOUSA met with DO1 officials to discuss the report.

       Abramoffs e-mails reflect that in September 2002, he received ain e-mail
from a DO1 official stating that Meissner's report, which the official noted had
been requested by Black, was being used to promote the application of' federal
immigration law in the CNMI. The e-mail also mentioned that Black would be
traveling to Washington, D.C., in October 2002 to promote the expansi.on of
federal immigration law to CNMI. Abramoff sent a n e-mail to a Greenberg
Traurig colleague on September 6, 2002, stating that they would have to
"activate" on the CNMI very soon. Abramoff also told the colleague in t:he
e-mail that he would be "leading the charge" to "assault" Black in the press,
and that Black was a "villain" who was hated by "our Guam friend" Charfouros.
In a separate e-mail that same day, Abrarnoff stated, " r ~ have
                                                             e   to ma~kesure
this Black guy is s~nearedinto the ground." I n response, the colleague stated
that he would get someone on it right away.

      However, while it is evident that Abramoff was angry about the CNMI
security report and wanted to attack Black because of it, we found that neither
the report nor Abramoff affected the selection of Rapadas as Guam U.S.
Attorney, an issue that had been determined months earlier.

      H.     RapadaspsBackground Investigation

       On May 2, 2002, Rapadas sent a. letter to EOUSA enclosing a copy of the
forms he had been asked to complete in connection with his backgroul;d
investigation. On June 3, 2002, the DOJ and the White House Counsel's office
both sent paperwork to the FBI requesting that the background investigation
be initiated. Because of Black's allegations that the Rapadas background
investigation was insufficient, we examined the background investigation
process in detail.

       FBI records reflect that Rapadas's initial FBI interview took place on
June 18, 2002. The FBI interviewed Black in connection with the Rapadas
background investigation on June 22, 2002. In the interview, Black provided
his assessment of liapadas's qualifications. According to FBI records, Black
stated that if the issue does not involve local politics, then Rapadas c a n be fair.
However, Black said that politics in Guam is controlled by essentially :I
criminal enterprise. He said that the Guam Attorney General's Office is the
facilitator for much of the procurement fraud on the island, which makes
Rapadas a witness to almost all public corruption cases being investigated.
Black said that the appointment of Rapadas would hinder the only "effi:ctiven
prosecutors on Guam, namely the federal prosecut.ors.

       Black also provided a harsh assessment of Rapadas's legal and personal
qualifications. He described Rapadas as "lazy and incom.petent," laclti~lg
integrity, of "weak character" and "not to be trusted." He asserted that
Rapadas was "easily influenced by local political forces." Black also idleged to
the FBI that Rapadas had "very close ties" with Tommy Tanaka, the subject of
an ongoing public corruption investigation by the Guam USAO. Black stated
that he thought Tanaka had used his political influence to get Rapadas the
nomination so that Tanaka's criminal matter would "disappear."20 Black stated
that he had never watched Rapadas try a case and had never read any of
Rapadas's legal submissions, although he stated that Rapadas had "won cases"
in the local Guam courts.

       A s mentioned previously, DOJ policy requires that U.S. Attorney or high-
level DOJ candidate background investigations must include interviews of at
least six federal, state, and local judges; three associate attorneys; three
opposing attorneys; six representatives from federal, state, and local
government prosecutors' offices; and U.S. Senators of the state where the
candidate will serve. By August 28, 2002, the FBI had completed most of this
background investigation work, and on that date, the FBI's Office of Special
Investigations and General Backgrountl Unit (SIGBU),the unit responsible for
coordinating FBI background investigations, sent a memorandum to DOJ
enclosing the partial results of the background investigation on Rapadas.

       The FBI's August 28 memorandum summarized the "derogatory"
information revealed by the investigation up to that point. The memorandum
noted that, a s Black had said, Rapadas's uncle Tommy Tanaka was one of the
subjects of a broad public corruption investigation by the Guam USAOYsoffice.
The memorandum also stated that the FBI intended to conduct furth~er-
interviews in connection with an allegation relating to Rapadas's personal
conduct, the alleged conflict of interest involving Tanaka, and an allegation
that Rapadas knew of alleged "cover-ups" at the Guam Attorney General's office
related to Tanaka and Gutierrez.

       On September 20, 2002, the FBI field office in Honolulu, which handled
part of the background investigation, sent a memorandum to SIGBU describing
the interviews of Rapadas's co-workers and other investigative steps taken to
resolve the outstan.ding issues. The memorandum. stated that the investigation
had concluded that the allegations regarding Rapadas's personal conduct
"could not be used to coerce" Rapadas. The FBI's memoranda of witness

       20 During the course of our investigation we found no evidence that Tanakia vvas
involved in the Rapadas nomination.
interviews reflect that agents interviewed all the relevant parties relaited to the
personal conduct allegation, including those identified as likely witnesses, and
were unable to corroborate the allegations. The memorandum also sltated that
the FBI's investigat.ion revealed no evidence that Rapadas was involved in the
public corruption allegations related to Tanaka. After receiving this
information from the Honolulu field office, SIGBU forwarded the information to
the DOJ and closed the background investigation.

      On September 24, 2002, EOUSA submitted a memorandum to DlOJ
White House Liaison Higbee summarizing the Rapadas background
investigation. The memorandum stated that all the law enforcement agencies
recommended appointment, flagged the derogatory information contained in
the background investigation, and summarized other results of the
investigation.

       In his interview with the OIG, Higbee said that he would describe the
background investigation as "marginal" from a clearance standpoint, meaning
that it raised some issues of concern. However, Higbee stated that he thought
it contained nothing that precluded the Rapadas nomination from going
forward. All the law enforcement agencies recommended. appointment,,which
Higbee said he viewed a s very important. With respect to Rapadas's
professional qualifications, Higbee told the OIG that one way of addressing any
concerns about a U.S. Attorney's abilities was to require that EOUSA a.ppoint a
strong First Assistant United States Attorney (FAUSA) for the office. Similarly,
Sampson told the OIG that nothing in the September 24, 2002, s u m m i q of the
background investigation would have led Sampson to conclude that Rsipadas
should not be nominated.

       DOJ records reflect that on November 12, 2002, DOJ or White House
staff requested addlitional information regarding Rapadas's personal finances,
including one closed bank account and the status of a rn-ortgage. Th.e
background investigation was re-opened by the FBI and Rapadas and the FBI
provided the necessary information to address those questions by
November 15, 2002. That information was forwarded to the White House by
DOJ that same day and the FBI then closed the background investigation for
the second time.

     On November 19, 2002, the White House issued a press release
announcing the Priesident's intent to nominate Rapadas a s U.S. Attorney.

      However, after the President's announcement, Black continued to
express concerns a~boutRapadas. For example, on November 19, 2002, Black
sent an e-mail to EiOUSA stating that he received the "unexpected" message
that Rapadas would be nominated. In the e-mail, Black stated that Ratpadas
had a conflict of interest with regard to his uncle, Tanaka. In response to these
concerns, the FBI again re-opened the background investigation. During
another interview with the FBI on December 17, 2002, Black stated that
Gutierrez attempted to corruptly influence Rapadas by asking one of Rapadas's
relatives to speak to Rapadas about the public corruption case involving the
Gutierrez Administration. That same day, Black sent an e-mail to Margolis
noting that Congress had adjourned without acting on the nomination and
requesting that the President be informed of Black's objections to Rapaldas's
nomination. On January 7, 2003, Black sent another letter to the Attorney
General regarding Rapadas's selection of the U.S. Attorney for Guam. In the
letter, Black outlined his reasons why :Rapadaswas not the best candidate for
the position, including Black's c0ncern.s about Rapadas's competence, conflicts
of interest, and additional allegations a~boutRapadas's personal conduct.21

      On January 9 , 2003, the FBI field office forwarded the summary of the
December 17, 2002, interview of Black to SIGBU, and SIGBU closed the
background investigation for the third time. However, that same day the FBI
received a memorandum from DOJ stating that Black had reported that
another individual had something to add to Rapadas's background
investigation. Based on this memorandum and additional information about
individuals who might have pertinent information, on January 13, 2002, the
FBI re-opened the Rapadas background investigation again.

      After conducting further interviews, the FBI agent assigned to this matter
stated in a n e-mail that "there are no new revelations which have not allready
been addressed. J u s t new people repeating the same old rumors." The
background investigation was closed for the fourth. and final time on
January 22, 2003.

       Rapadas was re-nominated on January 28, 2003 (shortly after a new
Congressional session began). In March 2003, the Senate Judiciary Committee
requested a letter from Rapadas outlining how he would deal with the conflict
of interest issue raised in his background investigation. In April 2003,
Rapadas and Margolis each sent a letter to the Judiciary Committee discussing
the conflict issue and the plan to recuse Rapadas from certain investigations if
Rapadas was confirmed.

       On May 9, 2003, the Senate voted to confirm Rapa.das, and he was sworn
in a s U.S. Attorney on May 23, 2003.




      21   Black sent a second, similar, letter t.o the Attorney General on March 28, 2'003.




                                               26
       I.     Black's Allegations Regarding Abramoffs Relationship with the
              Superior Court of Guam

       Black has also alleged that he was replaced ias U.S. Attorney for Guam in
retaliation for allegations he raised to the DOJ regarding lobbying fees
Abramoff received from the Superior Court of Guam. In addition, Black made
more general allegations that he was replaced as the interim U.S. Attorney to
prevent a full investigation of these and other public corruption matters in
Guam and the CNMI. In this section, we discuss in more detail the allegations
Black raised about the lobbying fees and the DOJ7sinvestigation of tholse
allegations.

       Black first brought allegations regarding Abramoff to the attention of
DOJ officials in November 2002, a s Rapadas was undergoing final review by
DOJ and White House officials. On November 1, 2002, Black sent a n €:-mailto
 DOJ Public Integrity Section Chief Noel Hillman and other DOJ officials,
including Associatr: Deputy Attorney General Margolis, requesting su~pportfrom
the Public Integrity Section regarding an investigation of Alberto Lammol-ena, the
 Presiding Judge of the Superior Court of Guam. Black attached documents
which he alleged demonstrated that Lamorena was involved in a $500,000
'smurfing" scheme with Abramoff. Black alleged the scheme involved a series
of payments from the Superior Court of Guam to attorney Howard Hiills in
$9,000 increments? Black also stated that Lamorena was one of several local
judges who sat on the federal bench when Guam's sole federal district court
judge, John Unpingco (Antonio Unpingco's relative), was off the island.

      Black stated in the November 1 e-mail that legislation pending in the
U.S. Congress would place the Supreme Court of Guam in charge of the entire
court system in Gulam, including the Superior Court. He stated that the bill
had "bipartisan support" but that due to Abramoff's influence, it was never
voted on. Black all.eged that the press spokesman for the Superior Court first
denied knowing about payments to Abramoff, then said that the money was
used to hire Hills, who then hired Abramoff.23 Black also said that although
the press spokesman claimed that Hills and Abramoff worked to obtain
$9 million in federal grants for the Superior Court, Abrarnoff said he received
$400,000 to lobby against the bill that would have placed the Supreme Court

       22 "Smurfingnis a slang term for making a series of small transactions to escape the
regulatory notice a single larger transaction might attract. Investigators call "hopping from
bank to bank" with cash amounts just under the $10,000 limit "smurfing" after the c:hildrenJs
cartoon in which little blue characters hop around.
       23 Abramoff told the OIG that in the spring of 2002, after a Congressional hearing was
scheduled on the Guam court legislation, he was contacted by Hills, met with Hills aind Judge
Lamorena, and agreed to lobby against the bill. Larnorena had testified at the hearing in
opposition to the bill.
of Guam in charge of the Superior Court. Black said he did not know whether
federal funds were used to hire Abramoff.

      Black also alleged in the e-mail that Abramoff worked for Governor
Gutierrez. Black said his office had "major corruption in.vestigations"ongoing
regarding certain Gutierrez Administration officials, including one that was
linked legislatively to a b i l that kept the Superior Court of Guam in charge of
its own administrative affairs. In the e-mail, Black also mentioned other
corruption cases ongoing in his office.

       Margolis said that after he received the November 1, 2002, e-mail from
Black, he contacted Hillman to ensure that Black would get the support from
the Public Integrity Section that Black requested. Margolis also forwarded the
e-mail to the section's Principal Deputy Chief, Stuart Goldberg, who handled
allegations related to federal judges. Willman told u s that he discussed the
matter with Goldberg, who had spoken with the U.S. Attorney's Office in Guam
in the past. Goldberg told the OIG that Margolis was concerned there might be
a recusal issue since Black's e-mail suggested that Lamorena might be called
to sit on federal cases while the investigation of his conduct was pending.

      According to Goldberg, on several occasions Black contacted him,
Hillman, or others to seek help from the Public 1nt.egritySection. Goldberg told
the OIG that it was often hard to determine whether Black wanted help with a
specific case or help with general corruption problems in Guam. ~ o l d . b esaid
                                                                               r~
Black often mentioned pieces of different cases in the same conversattion and it
was hard for a Guam outsider to see tlie connection between the cas,ez;.
Goldberg said that Black's allegations were very general and broad, which
made it hard for Goldberg to figure out what assistance to provide. Goldberg
stated that the Public Integrity Section is a small section with limited resources
and that he needed specific details in order to decide when and what help to
send. Nevertheless, Goldberg said that on two previous occasions the Public
Integrity Section had sent experienced trial attorneys to meet with the
prosecutors and agents in Guam to help assess the public corruption situation
and to provide advice about how to deal with it.

      Goldberg said that in this instance he first tried to answer Margolis's
question regarding the recusal issue. Goldberg told the OIG that he spoke with
Joseph Wilson, who was then the Criminal Chief of the Guam USAOl. Their
conversation took place on November 14, 2002, according to Goldberg's
contemporaneous notes. Goldberg and Wilson decided that the Gua.m USA0
could avoid using Lamorena for federal matters while the investigation.was
pending. Goldberg sent Margolis an e-mail the next day informing hlinl of this
decision.

      Goldberg and Wilson also talked about the "smurfing" a1legation.s raised
by Black. Goldberg described the conversation with Wilson as a brainstorming
session. Goldberg said he did not think the facts described by Black
constituted a "smurfingn scheme because all the money was going into one
account and consequently there was a paper trail. He said he thouglht there
might be an administrative procurement violation if the person writing the
checks was authorized only to sign checks under $10,000 and was structuring
the payments to avoid the procurement regulations. Goldberg said h~ealso told
Wilson that Wilson should try to figure out what funds were being expended to
determine if there was a federal crime. He said he and Wilson discussed a
possible violation of 18 U.S.C. 5 666, which applies to funds stolen or rnisused
from a program receiving federal funds. Goldberg told the OIG that he believed
a t the time that the participants may have been trying to avoid some kind of
Guam procurement regulation rather than a federal statute.24

      In an e-mail to Margolis the next day, Goldberg said that the G . u m
USAO would do some preliminary investigation regarding the Superior Court
checks. Goldberg added, "If it appears there is some there there, they will
contact us, and we will get actively involved a t that point. I made clear,
however, we were available to consult a t any time on the prelim. or any other
matter . . . .n

      Documents reflect that the Guam USAO began looking into the:
allegations and took investigative steps to gather relevant information.

      A s part of the OIG's investigation, we requested that the Guam USAO
and the FBI produce any documents obtained in connection with the
investigation into this allegation. However, the USAO and the FBI tolld the OIG
that they were unable to locate any responsive document:s.25

       24 A December 2005 audit of these payments by the Office of the Public Auditor of
Guam found that the Superior Court used monies from its local "general fund" appropriation to
pay the lobbying fees for Hills. The audit found that the Guam judicial procuremeint
regulations did not provide guidelines for the procurement of' professional services, making
such procurements discretionary, and it recommended that the rules be changed to ensure
competitive procurement for all supplies and services. See www.guamopa.com, audit. entitled
"Superior Court of Guam Judicial Building Fund Performance Audit October 1, 1999 through
September 30, 2004 013A Report No. 05-08" at pages 20, 27-28.
       25 The Guam USAO reported that copies of the documents received in conn.ection with
this matter were not retained by the USAO-Guam.
        The FBI office in Guam said it was unable to provide any documents reflecting any
investigation into this rnatter for the period 1999 through 2004. The FBI also searched its
electronic database for any references to the relevant parties, such a s the Superior Court of
Guam, Howard Hills, and Alberto Lamorena. FBI employees also memually searched the
general public corruption case file for Guam open a t that time. In addition to searching the
main investigative file, the FBI searched the subfiles, which vvere created to store investigative
efforts regarding particular individuals such a s the Governor's associates. Nothing was found
through any of these searches.
       An April 2003 e-mail from Black to Hillman reflects that the Guam USAO
and the FBI did not continue to investigate the Superior Court checks
allegation. At the time he wrote the April 2003 e-mail, Black was stil.1 serving
a s interim U. S. Attorney pending Rapadas's Senate confirmation. In the
e-mail, Black stated, "Supposedly, the money was used to lobby against the
planned bill to place Guam's Supreme Court in control over the lesser Superior
Court. This mattes is on the back burner for now." Black also described in the
e-mail other USAO and FBI investigative priorities that prevented the FBI from
focusing on this matter.

       We asked Wilson why the investigation into the Superior Court checks
was put on the "back burner," a s characterized by Black. Wilson stated that a t
the time the Guam Public Corruption Task Force was investigating al1e:gations
of corruption by certain officials within the Gutierrez Adrninistration.26 The
investigation included allegations regarding Tommy Tanaka and Gutiel-reds
chief of staff, Gil Shinohara.

       Wilson told the OIG that he tried to find out something about thi:
"smurfing" allegations without straying too far from the rnain focus of t:he
Gutierrez Administration investigation. Wilson said that Black generally
wanted more to be done about the srnurfing allegation and appeared to believe
that there was something to the allegations. However, Wilson said that he and
Goldberg did not want to pursue this matter further because of the press of
cases regarding the Gutierrez Administration and concerns about a 1ac:k of
federal nexus or readily apparent federal felony offense.

      Black told the OIG that a t the time he did not press for additional
investigation into the matter because he did not want to get "sidetracked" on a
case that was a misdemeanor. However, he said that he wanted to cortduct
some investigation so that information relevant to these allegations would be
available at some point in the future.

      All of the witnesses we interviewed about the matter told u s they could
not recall any conrlection between the allegations regarding Abramof'f's
involvement with the Superior Court payments and the nomination of Rapadas.
For example, Margolis said that at the time Black initially made his allegations
about the smurfing scheme, the name Abramoff "meant nothing" to him.
Similarly, Goldberg told the OIG that before receiving a copy of Black's

        26 According to Black, the task force, which was created in the early 1980':s to combat
public corruption in Guam, was comprised of a variety of federal law enforcement agencies.
The FBI was the lead agency, and the U.S.Attorney's office participated a s well. At various
times, DOI, the IRS, and Federal Emergency Management Agency personnel participated in the
task force.
November 1, 2002, e-mail to Hillman, he was not aware of any public:
corruption issue concerning Abramoff and the Superior Court of Gua.m, and
Goldberg said he had not yet heard of Abram0ff.2~

      Moreover, Wilson told the OIG that he does not believe that the:
announcement of the Rapadas appointment had any impact on the
investigation of the smurfing allegations. Wilson said that after the Rapadas
appointment, the Guam investigative team continued to be focused on the case
against certain Gutierrez Administration officials and others connected to
Gutierrez, including Tanaka. The Gutierrez Administration investigation
ultimately led to the Shinohara's conviction for conspiracy, bank fraud, and
money laundering, and Tanaka's conviction for misprision of a felony.

      Margolis and other officials involved with the selection process also told
the OIG that the tirning of the November 19, 2002, public announcement of
Rapadas's nomination was determined by the completion of the background
investigation, not by any allegations Black raised involving Abramoff.

       J.     Discussions of Interim Appointment and Recusal

       Soon after the President's intent to nominate Rapadas was announced in
November 2002, DOJ officials discussed whether Rapadas should be appointed
as interim U.S.Attorney. As noted above, interim appointments by the
Attorney General expire after 120 days. At that time, if the person had not
been confirmed by the Senate, the local federal court could appoint someone to
serve in an interim capacity.

       DOJ decided not to appoint Rapadas a s interim U.S.Attorney. Margolis
stated that on a prior occasion the Guam District Judge had declined to
appoint someone to be interim U.S. Attorney in place of Black. In addition,
Margolis said that he planned to pursue a recusal of Rapadas from the
investigation concerning Tanaka because of Black's allegation that Rapladas's
relationship to Tanaka created a conflict of interest. Margolis said th.at.for
these reasons Rapadas was not given an interim appointment.

      During the early part of December 2002, DOJ officials discussed the
potential need to have Rapadas recused from the Tanaka. investigatioln. On
December 3, 2002, Margolis, the DOJ's deciding official on conflict mat-ters,
sent an e-mail with.in DOJ discussing t:he potential recusal issue. In addition,

       27 Goldberg stated that although he knew Black was serving a s the interim U.S.
Attorney, he was not aware that DOJ was selecting a Presidentially appointed U.S.Attorney for
Guam. Goldberg also told the OIG that he learned about Black's concerns regardiing Rapadas's
nomination when he received an e-mail from Black objecting to the nomination, after Rapadas
was nominated.
Margolis sought Black's input in these discussions. For example, on
December 12, 2002, Margolis sent an e-mail to Black asking if the Tanaka
portion of the investigation could be severdd from the rest of the case so that
Rapadas could be recused from that portion rather than the whole case. In a
December 3, 2002, e-mail to other DOJr officials about the recusal, Margolis
stated that he wanted to make sure that the overall investigation did not suffer
and the office did not make any prosecutorial decision regarding Rapadlas's
uncle.

       In a memorandum he sent to Margolis on December 23, Black described
the Guam USAO's ongoing public corruption investigations in detail, including
alleged connections between Rapadas and persons within the scope of the
investigations. In his memorandum, Black recommended that control (of the
entire Gutierrez Administration investigation go to Public Integrity, but that
Guam prosecutors remain on the case. He also rec:ommended that R.apadas be
recused and a "Chinese wall" be put in place so that Rapadas would not receive
any information ablout or have any supervisory con.trol over the investigation.
Public Integrity Section Deputy Chief Goldberg stated that he concurred with
this resolution of the conflict. Margolis approved the recusal.

       In March 2003, as a result of sonne of these concerns, the Sena~te
Judiciary Committee requested a letter from Rapadas outlining how he would
deal with the conflict of interest issues. Rapadas provided the letter on April 7.
Later that month, Margolis also wrote a letter to the committee addressing the
conflict question.

      As noted above, on May 9, 2003, the Senate voted to confirm Rapadas's
nomination, and he was sworn in a s U.S. Attorney on May 22, 2003. Since
then, he has been recused from cases involving Tanaka olr the investigs~tion
involving the Gutie~rrezAdministration.

       K.     Effect of Rapadas's Appointment on Public Corruption Cases
              in the District of Guam

      Black also alleged that Rapadas imd First Assistant United States
Attorney Russell Stoddard were selected to end Bla.ck's pursuit of pulbljc
corruption cases in Guam and the CNMI. Black stated that after Rapadas was
appointed and Stoddard arrived on Guam, Black was removed from handling
public corruption cases. 28



       28 Black also raised concerns about the manner in which Stoddard has bee:n paid for
his "temporary duty assignmentnin Guam over-the last three years. In addition, Black said
that Stoddard has not managed the office well, causing several qualified attorneys to leave.
These allegations are discussed in the next section of this report.
      Black claimed that, as a result of these actions, the investigation into
certain officials in Governor Gutierrez's Administration and other pulbljc
corruption matters have not been pursued to the d.egree they should hiave.
Black said that yearly statistics reflect that public corruption prosecuti.ons are
declining on Guam. Black also asserted to the OIG that "Prior to M a y of 2003
we had five attorneys working public corruption in Guam. Now we have only
one." In addition, Black has asserted that there have been "no new c:omption
investigations in three years."

      The OIG examined Black's allegations that Rapadas and Stoddard were
selected in order to curtail the Guam USAO's pursuit of public corrupt:ion
cases. We found no evidence to support this assertion.

       First, as noted above, we did not find any evidence that the individuals in
the Rapadas selection process discussed Rapadas's views on or intentions
relating to public corruption matters during that process. Second, Stoddard's
selection was handled by EOUSA and Rapadas. Margolis told the OIG that
given Black's reluctance to relinquish his position to the new U.S. Attorney,
and given Margolis's assessment that Rapadas was competent but not
exceptional, Margo'lis believed that a top-notch First Assistant United States
Attorney would be needed in Guam. He said he asked EOUSA to find one for
Guam. The Director of EOUSA suggested two people to Rapadas, and Rapadas
told the OIG that he ultimately selected one of the recommended candidates,
Stoddard, an AUSA from the U.S. Attorney's office for the Middle District of
Florida. Stoddard is a career prosecutor with no significant prior ties to Guam.
During our investigation, we found no evidence that Stoddard was selected
based on any particular views he held regarding public corruption cams.

      The OIG also examined Black's allegations regarding a reduction in
public corruption investigations by the Guam USAO after Rapadas because
U.S. Attorney.

      First, USAO statistics provided by Guam to the Public Integrity Section
do not demonstrate that during the time that Rapadas has served as the Guam
U.S. Attorney and Stoddard has served. as First Assistant they failed to pursue
public corruption nnatters.29 While the number of public corruption
convictions for 2004 (9) reflect a reduction from 2003 (16),the numbers for
2004 are significantly higher than the number of convictions by the Guam U.S.
Attorney's office in 1995 (1) through 1999 (7),a time when Black was the U.S.
Attorney. While the numbers are highest between 2000 (19 cases) to 2003
(16 cases), Goldberg explained that it may take 2 to 3 years to bring a case to
fruition, so the number of convictions can vary dramatically from year to year.
He stated that he would become concerned only if he saw no cases, or (onlya
few, for several years. Goldberg stated that since former Guam USAO criminal
chief Wilson left Guam in 2005, Goldberg has had no direct contact with the
USAO so he is not aware of the specific cases they are pursuing. He said,
however, that the change from 16 to 9 cases would not cause him conc:ern that
there was a lack of focus or willingness to investigate public corruption. cases
in Guam.

      Second, we found that after Rapadas was appointed, the USA0
continued to pursu.e the investigation into the Gutierrez Administration under
the direction of Public Integrity Section Chief Hillman, who acted a s U.S.
Attorney for Guam due to Rapadas's recusal from the case. A s previously
mentioned, those investigations resulted in the conviction of both Shinlohara
and Tanaka in 2003.

       Third, the FBI Special Agent who has led the public corruption task force
on Guam since 1999 told the OIG that the U.S. Attorney's office on Gt~amhas
not shifted its focus away from public corruption matters since Rapadais's
appointment. He said that the only major change that occurred when Rapadas
was appointed was that there was increased paperwork for Wilson due to the
involvement of the Public Integrity Section in Washington, D.C. However, he
said he does not believe anything else changed in the way of investigative
priorities. He said that while the number cases have gone down, that is due to

       29 The Public Integrity Section's annual Report to Congress cln its Activities and
Operations for 2004 shows the following number of Guam putblic cornption convictions (by
year):
                          YEAR               Number of
                                             Convictions
                          1995                1
                          1996               3
                          1997               7
                          1998               6
                          1999               7
                          2000                19
                          2001                19
                          2002                13
                          2003                16
                          2004               9
the normal "cycle" of cases. The Special Agent stated that the task force
focused its energy on the Gutierrez Administration cases, and had now reached
the end of that road so it was necessary to build up some new cases.

       The FBI Special Agent also provided several reasons why the conviction
rate had declined that had nothing to do with Black. For example, he noted
that the Federal Emergency Management Agency and the Department of the
Interior no longer have agents assigned to the task force, which means that the
FBI and Internal Revenue Service agents must handle all investigations. He
also stated that when there was a change in the gubernatorial administration
on Guam, the number of public corruption referrals went down.

       The FBI Special Agent told the OIG that the appointment of Rapadas has
not had any effect on the pursuit of public corruption matters. He told the OIG
that Stoddard is the individual with the authority t;o approve or decliine new
public corruption matters, and Stoddard has never said "no" to a pul~lic
corruption matter brought to him by the task force. The FBI Special Agent said
he believes the U.S. Attorney's office has re-opened some old public c:or*ruption
matters and has also opened some new ones. He also stated that he believes
Stoddard is trying to open more public corruption matters. The Spec:ial Agent
added that while he believes that Black: was a "valuable" part of the task force
team, he also believes Black wanted to keep the job of U.S. Attorney and is now
"flinging mud" a t those in charge of the office.

       Fourth, Stoddard denies refocusing resources away from public
corruption, a s alleged by Black. Stoddard stated that public corruption is still
the "most significant thing we do" and is the type of case that has the "greatest
impact" on the District. He told the OIG that during the first year and a half he
served as First AUSA in Guam, public corruption resources were focused
primarily on the Gutierrez Administration cases. Given that two of the trials in
that investigation took place in San Francisco, the task force was unable
during that time to focus on other matters.

       Stoddard denied that the Guam USA0 has only one person assigned to
public corruption matters on a full-time basis, a s alleged by Black. He stated
that all three attorneys assigned to the Saipan office work on public corruption
cases full time, that another AUSA in the Guam office spends over half his time
on public corruption, and that the other public corruption cases are spread out
among some of the remaining attorneys. In addition, Stoddard stated that he
expects a new Criminal Chief will be hired soon to replace Wilson, which will
increase the number of attorneys available to handle public corruption matters.

     Stoddard stated that he believes the U.S. Attorneys office in Guam has
opened a total of 29 matters involving public corruption since Rapadas's
appointment.30 Stoddard told the OIG that he has never "turned down" a
public corruption matter "brought to the door." He stated that he has held
meetings with law enforcement officials to try to increase the number olf public
corruption matters they pursue. Similar to the FBI Special Agent, he noted
that there has been a reduction in the number of investigative agents assigned
to the task force.

       Stoddard told the OIG that his decision to remove 13lack from the task
force was based on his belief that Black's lack of focus was not helpful to other
task force members. Stoddard told the OIG that this re-assignment wais made
in order to improve the functioning of the task force, not to hamper its progress
on the Gutierrez Administration investigations. Stoddarcl stated that prior to
his arrival in Guam he was not directed by anyone as to how he should nun the
office. He stated th.at he believes, based on his discussions with others on the
task force, that he ]made the right decision about Black's involvement on the
task force.

      In sum, our interviews and review of documents did not reveal evidence
that would support a conclusion that Rapadas or Stoddard were selected in
order to diminish public corruption prosecutions on Guam.

       L.     Wegations Involving the First Assistant U.8. Attorney for
              Guam

       Black has also raised questions about the propriety of Stoddard's per
diem arrangement. He also alleged that Stoddard has mismanaged the office,
including by causing talented public corruption prosecutors to leave the Guam
USAO, further diminishing the office's ability to pursue public corruptic~n
cases. Documents relating to Stoddard's per diem arrangement reflect that
DOJ continued to pay Stoddard's meals and incidental expenses during the
second year of his assignment. This practice was contrary to EOUSA general
policy to pay meals and incidental expenses for temporary assignments for one
year, absent specific justification. However, when the error was discovered at
the end of the second year of Stoddard's assignment, EOUSA notified the U.S.
Attorney's Office in Guam. Rapadas provided a letter requesting that EOUSA
continue to pay for Stoddard's meals and incidental expenses for a third year,
and EOUSA agreed.. The request letter did not contain a specific justification
for those payments.

     While paying per diem for more than a year is not unprecedented in the
DOJ, we have referred the issue of Stoddard's per diem to EOUSA for its review
and appropriate act-ion. While we did not conduct a formal audit of all EOUSA

       30 Stoddard stated that some of the matters to which :he referred involve public
corruption but may not be categorized a s such in EOUSA's computer database.
payments to Stoddard, we did not find other evidence of errors or
overpayments in th.e paperwork we reviewed. We also referred Black's more
general allegation that Stoddard has mismanaged the office to EOUSA for its
review.


IV.   OIG ANALYSLIS

      A.    Alleged Connection Between Rapadas's Selection andl Ellack's
            Allegations to DOJ Officials about Abramoff

      We found no evidence to support a conclusion that the selection of
Rapadas to be the lJnited States Attorney for the District of Guam and CNMI
was the result of any retaliation against Black for raising allegations ag,ainst
Abramoff.

       First, our review of how Rapadas's name was recommended to the White
House revealed no involvement by Abratmoff, and we found no evidence that the
individuals who recommended Rapadas to the White House did so to prevent
any investigation of Abramoff. Moreover, when Rapadas .was interviewed by the
DOJ interview panel, it determined in December 2001 that Rapadas w a ~ s
qualified. Sampson stated that he could not recall any occasion when the
Deputy Attorney General, Attorney Gen.era1, and White House Counsel did not
concur with the panel's recommendation for a U.S. Attorney. Thus, it appears
for practical purposes the decision to select Rapadas was made by the
interview panel prior to February 2002. In addition, the President ha.d decided
to nominate Rapadas, pending the completion of a background invesltigation,
on March 8, 2002, well before Black raised any allegations about Abramoff to
the DOJ.

       The OIG's investigation revealed that Black first raised his allegations to
DOJ officials regarding payments by the Superior Court of Guam to Hills and
Abramoff by e-mail to Public Integrity SlectionChief Hillman dated November 1,
2002. Although the Rapadas nomination was not publicly announced until
November 19, 2002, we found no evidence to suggest that Black's e-mail
affected the nominattion or the public announcement of the nomination.
Rather, the timing of the nomination was determined by the completi~onlof the
FBI background investigation and the review of that investigation by DOJ
officials.

      We also found that in response to Black's e-mail requesting assistance
with regard to a pot.ential investigation related to Abramolf, DOJ provided the
assistance that Black requested. In his November 1, 2002, e-mail describing
the "smurfing" allegation involving Abratmoff, Black requested support from the
DOJ Public Integrity Section. Specifically, Black requested that Hillman
"designate an attorney we can consult with" and suggested that Guam
Criminal Chief Wilson would be an appropriate contact person for the matter.
Contemporaneous notes reflect that a s a result of Black's request, Publlic
Integrity Deputy Chief Stuart Goldberg consulted with Wilson. Goldberg told
the OIG that as a result of Black's e-mail he suggested that the Guam USAO
conduct further investigation and contact him again if there was somle "there
there." Wilson confirmed that the Guam USAO conducted further investigation
and then decided not to pursue the ma.tter for reasons having nothing to do
with Rapadas or Abramoff.

       We found that the allegations of improper payments by the Superior
Court of Guam to Hills and Abrarnoff were not pursued in late 2002 and early
2003 for two main reasons. First, the U.S. Attorney's Office in Guam was at
that time focusing on other pressing matters involving the Administration of
Governor Gutierrez. Indeed, Black himself wrote to Public Integrity Section
Chief Hillman in April 2003 and stated that because of other investigative
priorities, the question of the $9,000 checks to Hills was on the "back burner."
Second, Wilson and Goldberg believed the allegations did not present facts.
easily susceptible to a federal corruption charge. In fact, a December 2005
audit conducted by the Office of the Public Auditor for Guam concluded that
the payments to Hills came from local appropriations rather than from federal
funds?

      We also note that the DOJ has demonstrated. no reluctance to pursue
allegations against Abramoff. Indeed, to date the investigation of Abrarnoff and
his colleagues has resulted in four guilty pleas, including pleas by Ablramoff to
conspiracy, wire fraud, and tax evasion.

      The evidence does show that Abramoff and his colleagues wanted. Black
removed from his position a s interim U.S. Attorney. However, the evidence
demonstrates that by the time Abrarnoff became involved in an effort to remove
Black, neither Blaclk nor the candidate Abramoff was supporting were under
consideration for th.e presidential appointment, and that Rapadas had already
been selected. When Abramoffs colleague contacted DOJ official Thorson
about the matter, Abramoffs colleague was informed that: the President had
already made the decision to nominate Rapadas pending completion of the
background investigation. According to Abramoffs e-mails, Thorson told
Abrarnoffs colleague that they were "too late" to affect the process and that


        3 l Although the audit revealed that the Superior Court did not issue a requ:ireld IRS
form to Hills for paymeilts and neither Mills noi- Abrarnoff filed a lobblying registration on behalf
of the Superior Court, the money paid by the Siuperior Court ito Mills was from local
appropriations. See ziw.guamopa.com, audit entitled "Superior Court of Guam Judicial
Building Fund Performance Audit October 1, 1999 through September 30, 2004 OF'A Report
No. 05-08" at 27. Therefore, Goldberg's suspicion that the case might not be easily susceptible
to a federal charge turned out, in our judgment, to be reasonable.
Rapadas was "the pick." In response, Abramoff attempted to "spin" that he had
something to do with the selection, when he clearly understood that he: had no
involvement.

      Given Abrarn.off's instruction to his subordinates to claim credit for
Black's replacemenut, Black's belief that Abramoff had influenced the
nomination is not unreasonable. However, Abramoffs e-mails - and th~eother
evidence - makes clear that he was attempting to take credit for a decision he
played no role in influencing.

       B.     The May 2002 Security Report

       The evidence also does not support Black's allegation that the selection
of Rapadas was linked in any way to the recommendation in a security report
that federal immigration laws be applied in the CNMI. The report was not
provided to Black until May 6, 2002, and the President had already sta.ted his
intent to nominate Rapadas by March 8, 2002, pending successful conlpletion
of the background investigation. Thus, the security report and its contents did
not affect the decision of DOJ officials to recommend Rapadas or the
President's decision to nominate Rapadas upon S U C C ~ S S ~ I Jcompletion
                                                                  ~         (of a
background investigation. While the documents indicate that in Septe~nber
2002, Abramoff lobbied against the report and the legislation supported by the
report, that was after Rapadas already had been selected. A s noted above, the
OIG has referred the allegations relating to how Abramoff obtained the security
report and how that report was handled, including any corrupt influence
brought to bear on the issue by Abramoff or others in association with
Abramoff, to the Department of the Interior OIG and the FBI.32

      However, we concluded that the evidence does not support Black's more
general allegation that Rapadas was selected to undercut support for
application of federal immigration laws in Guam and CNMI. The DOJ and
White House officials who interviewed Rapadas denied ch~oosingRapadius
because of his position on that issue and said they did not recall any
discussion of the issue during the selection process. In addition, we found no
documents suggesting that those involved in the selection of Rapada.,C- were
focused on this immigration issue.




       32 In addition, the question of whether federal immigration law should app1.y in the
CNMI is a contentious jpolicy issue that is beyond the scope of the 01G7sinvestigation. While
Black strongly supports such legislation, witnesses and documents reflect that the issue has
been the subject of much debate and proposed legislation on multiple occasions. A,ltIiough
Black has a strong view on the merits of this issue, we have not in this report examined the
that policy or the variolls efforts to influence that policy
      C.    Public Corruption

       We also concluded that the evidence does not support Black's more
general allegation t:hat Rapadas was sedected to end Black's pursuit of public
corruption cases. The person who initiated Rapadas's candidacy, Antonio
Unpingco, and the members of the panel who recommended Rapadas for the
position said they could not recall any specific discussioi~of public corruption
matters during the interview or selection discussions. Further, they denied
selecting Rapadas in order to diminish public corruption prosecutions in
Guam, and the evidence showed that DOJ continued public corruption
investigations after Rapadas's appointment.

       Black's allegation that the U.S. Attorney's Office on Guam is no longer
focused on public corruption matters is not supported by the evidence. The
FBI Special Agent in charge of the public corruption task force for the last six
years told the OIG that he does not know of any public corruption matter .
declined by the U.S. Attorney's office since Rapadas was appointed. He stated
that the fluctuations in the number of public corruption convictions is due to
the normal cycle of cases. Similarly, Stoddard told the OIG that he is zictively
seeking public corruption matters, and that he believes 29 new matters which
have public corruption aspects have been opened since Rapadas became the
U. S. Attorney.

      In sum, we did not find sufficient evidence to support Black's allegations
that there has beer1 any intentional effort to diminish public corruption cases
by appointing Rapadas or Stoddard.

      D.    Rapadas's Background Investigation and Recusal

      Finally, we concluded that the Rapadas background investigatiorl was
conducted in an appropriate and methodical manner by the FBI. At each point
where Black raised additional concerns, they were investigated by the FBI and
addressed by DOJ officials. Furthermore, the recusal of Rapadas from the
investigation into the Gutierrez Administration was ultim~atelyresolved in the
manner consistent with Black's recommendations. In addition, the conflict of
interest issue was raised to and evaluated by the Senate Judiciary Committee
before it voted to confirm Rapadas. Based on the forgoing, we did not find
evidence to conclude that the background investigation was insufficient or was
handled inappropriately.
I7    CONCLUSION

      In sum, we found that D O J and White House officials selected Rapadas
as the nominee for Presidential appointment to the U.S. Attorney's position
pursuant to its normal selection process, long before Black raised his
allegations against Abramoff and well before issuance of the security report
recommending the application of federal immigration law in the CNMI. The
evidence does not support Black's assertion that he was replaced a s interim
U.S. Attorney for Guam because of allegations he raised regarding Abr;3moff or
because of his position on the application of federal immigration law in. the
CNMI. Although the public announcement of the nomination was m<adleafter
Black first raised his allegations against Abramoff, the timing of the
announcement was unrelated to those allegations and instead was determined
by the successful completion of Rapadas's background investigation.

       We also concluded that the background investigation was ~ondu~cted    in
accord with normal practices, and the concerns Black raised regarding
Rapadas were investigated. Moreover, conflict of interest issues Black
identified during Rapadas's background investigation concerning Rapadas's
uncle resulted in Rapadas's recusal, once he becarne U.S. Attorney, fi-om
certain public corruption cases. The evidence also reflects that those cases
were pursued by career prosecutors in the Guam U.S. Attorney's office after
Rapadas became the U.S. Attorney. In addition, the evidence did not support
Black's allegation that Rapadas's background investigation was insufficient.
